Office of Inspector [,>inera}
          United States
  Intematioml T~.-1e. ~ssion




                       Review of the
                       Commission's
                        Information
                         Resources
                       Management
                          Function
                                September 29, 2000




                                             Office of I nspect01- General
                                                  [,'_5,   Int~rIlGii<JIlal Trade CGH1.m~"'''''l
INSPECTOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                          WASHINGTON, D.C. 20436

  September 29, 2000

  We hereby submit Audit Report No. OIG-AR-O I-00, Rfl'ifll' ofthe Commission's
  Information Resources ManagcfJlt,'m Function, for the Commission's
  implementation of our recommendations.

  The principal product ofthe Commission is information in the form of rulings,
  determinations, advice, research reports, databases, etc, The Commission
  relies upon information processes that combine both human and information
  technology (IT) resources to generate its work products. The design of these
   processes and the development and allocation of resources for these processes
   is the responsibility of the Commission's Information Resource Management
   (IRM) function.

  The Clinger-Cohen Act of 1996 was designed to improve IRM in federal
  agencies. Among the Act's most important provisions are:

   •     Agencies shall deSign and implement a process for maximizing the
         value and assessing and managing the risks of IT acquisitions,

   •     Agencies shall establish goals for improving agency operations and
         delivery of services to the public through the effective use of IT.

   •     Agencies shall ensure that performance measurements are prescribed
         for IT used by or to be acquired by the agency.

   •      Agencies shall analyze their missions and, based on this analysis, revise
          agency mission-related and administrative processes as appropriate
          before making significant investments in IT that supports those
          processes.

   •      Agencies shall appoint a Chief Information Officer (CIO) who will
          advise and assist the agency head and other senior management
          officials on acquisition of IT and the management of information
          resources (IR) and who will promote the effective and efficient design
          of the agency IRM processes.                    .
The purpose of our audit was to evaluate the Commission's current IRM
function and to recommend changes and improvements consistent with the
Clinger-Cohen Act. We found, as did a 1987 U,S, Ceneral Accounting Office
audit, that the Commission's IRM function was highly fragmentcd. Our
primary recommendation is that the Commission appoint a CIa and assign
sufficient responsibilities and resources to this position so that the CIa can
provide uniflcd direction to the Commission's IRM.

We also found shortcomings in the Commission's efforts to align information
resources and slrategic objectives. To address these shortcomings we made
recommendations for strengthening the Information Resources Management
Steering Committee (IRMSC) and updating the IRM Strategic Plan. We also
made recommendations for improving the- management of the Commission's
IRM personnel and improving information security planning.

Because the Commission's work is so information intensive, its main avenue
for improvement in its products and services is through improving its JR. The
recommendations we have made will provide the procedural framework for
such improvement. We recognize that a significant capital investment is
necessary to implement our primary recommendation. However. this
investment could reap many benefits in the immediate future for the
Commission.

A draft of this report was submitted for comment to the Chairman and
Commissioners on February 14, 2000, with courtesy copies to Office
Directors. In response, the Chairman agreed to the establishment of a Cf O
office, contingent on the availability of resources. On September 25, 2000,
the Chairman approved a plan to implement the recommendations contained
in this report. The approved plan is attached as Appendix VI.




                                                    Dev Jagadesan
                                                    Acting Inspector General
                                               OIG-AR-OI-OO




    Audit Report No. OIG-AR-OI-OO

Review of the Commission's Information
    Resources Management Function

         September 29,2000




                           Office of I nspeetor General
                                1.I$_ IIII~m'lfi.:m<J; Tr<,dt C"IJW:lj,;",o)"
                                                                                                         OIG-AR-OI-OO



                                         TABLE OF CONTENTS

                                                                                                                             Page

I.     Introduction

II. Objectives                       .

III. Methodology and Scope                                                                                              .

IV. Background                                                      .          .                                                    2

          A. The Clinger-Cohen Act                                                                                                 2
          B. Evolution of the Commission's IRM Organization and Process                                                            3

V.        Commission's Current Organization                                                                                        4

VI.       Commission's Investments for Information Resources ........................ 6

VI!.      Findings and Recommendations            .......................................                                           7

          A. Designation of a Chief Information Officer. . . . . . . . . . . . . . . . . . . . .                                    7
          B. Need for Organizational Change. . . . . . . . . . . ..                                                                 8
          C. The Commission's IRl\·1 Process                        .                                                             12
          D. Personnel Assessment                                                                                                 13
          E. Security Plan                                                                                                        14

VIII. Summary of Recommendations                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 16

Appendix I . Methodology and Scope                                                                 ............. I-I

Appendix II - Summary of IRM Provisions of the Clinger-Cohen Act                                                               II-I

Appendix III - Summary of IRM Provisions of the Paperwork Reduction Act                                                       III-I

Appendix IV - Functions and Responsibilities of IRM Offices
and the IRMSC                                                                                                                 IV-l

Appendix V - History of Changes in the Commission's Organizations for IRM
since 1989 . . . . . . . . . . . . . . . . . . . .. . . . . . . . .                                                           V- I

Appendix VI - Memorandum from the Chairman (CO-74-X-OI5)                                                                      VI-I


                                                                                    Office of Inspector Geneml
                                                                                            UcS. IlItCr>lr:J6'OrH::1 Tmk C:nmni,;;sion
                                                                                      OIG-AR-OI-00



             REVIEW OF THE COMMISSION'S
         INFORMATION RESOURCES MANAGEMENT
                     FUNCTION
I.     INTRODUCTION

The Clinger-Cohen Act of 1996 (Act) and the amendments by the Act to the Paperwork
Reduction Act of 1995 (PRA) are based on best practices used by leading public and private
organizations to more effectively manage Information Technology (IT).

The Act requires Executive Agencies to design and implement processes that maximize the value
of IT acquisitions while managing the risks of those acquisitions. The intent of the Act is the
integration of IT decisions with the processes for making budget, financial, and program
management decisions, thus explicitly recognizing and elevating the importance of IT. Thus,
agencies must analyze mission-related and administrative processes, revising them as appropriate.
Additionally, processes should be bench marked against comparable processes of public or private
sector organizations.

As used in this report, the term, Information Resources Management (IRM), refers to the process
of managing information resources to accomplish the mission of the International Trade
Commission (Commission). Information Resources (lR) include information itself, as well as
related resources such as personnel, equipment, funds, and IT. IT is a subset of IR and refers to
the hardware and software operated by the Commission to accomplish particular functions,
regardless of the technology involved (e.g. computers, telecommunications, etc.).

II.    OBJECTIVES

The objectives of this audit are to: (I) determine what changes, if any, should be made to the
Commission's IRM function to conform to guidance in the Act, and (2) review the Commission's
current organization and processes for IRM and determine what improvements, if any, should
be made.

III.   METHODOLOGY AND SCOPE

Cotton & Company, LiP, was retained by the Office of Inspector General, to review the
Commission's 1M! function, with emphasis on the Commission's progress toward implementing
the Act. When performing our work, we considered the Commission's size and the benefits of
maintaining the current level of operating efficiency with future costs that may result from our
recommendations. Our recommendations are intended to maintain the present level of efficiency
in the Commission's use of personnel resources within the requirements of the Act and relevant
regulations. Additional detail regarding the methodology and scope is contained in Appendix r.


                                                                   Office of Inspector General
                                                                         [~S. ;"t>?",u.tio"aJ7,,",1, CVmmi5Iii<:>'1
                                                                                        OIG-AR-OI-OO


IV.    BACKGROUND
                                                     "Under the Clinger-Cohen Act,
       A.      The Clinger-Cohen Act                 decisions about IT investments are
                                                     based on quantitative and qualitative
The Clinger-Cohen Act is the most prominent of      factors associated with costs, benefits,
all recent IT reform legislation. The Act applies
                                                     and risks of those investments. "
to all executive agencies. In addition, the
conference report (No. 104-450) for the Act
provides that government entities that do not expressly fall under the Act should comply to the
extent consistent with good government. The Act also amends certain sections of the PRA. A
section-by-section summary of the Act and the PRA is provided in Appendices II and Ill,
respectively.

The Act promotes the evaluation and adoption of best management and acquisition practices
used by both private and public organizations. Additionally, under the Act, decisions about IT
investments are based on quantitative and qualitative factors associated with costs, benefits, and
risks of those investments.

Performance data is used to demonstrate how well IT expenditures support improvements to
agency programs through measurements such as reduced costs, improved employee productivity.
and higher customer satisfaction.

The Act requires the appointment of an executive-level Chief Information Officer (CIO). The
designation of the CIO was accomplished by amendment of the PRA. The PRA previously
required a "senior official." now designated as the CIO, The CIO retains responsibilities defined
under the Act. The Act incorporated these changes to elevate the importance of IT management
within federal agencies.

The Act also streamlines the IT acquisition process by eliminating the General Services
Administration's central acquisition authority, placing procurement responsibility directly with
Federal agencies, and encouraging the adoption of smaller. modular IT acquisition projects,

Additional key elements of the Act are summarized below:

               I.     Establishing processes for selecting and managing IT investments.
                      The Act provides for agencies to design and implement a process for
                      maximizing the value and assessing and managing the risks of IT
                      acquisitions. The Act lists specific elements that agencies must include in
                      that process and requires integration of the process with those for making
                      budget, financial, and program management decisions.

               2.     Revising agency processes. Before making significant investments in IT,
                      agencies must analyze agencv mission-relatcd processes and administrative

                                                                    Office    0/
                                                                               Inspector General
                                                2                        us- Iflt~roJLltiotlLlI Trod" Comm,=i,,,,
                                                                                   OIG-AR-OI-OO


                     processes, revising them as appropriate. Agencies should benchmark their
                     processes against comparable processes of public or private organizations.

              3.     Assessing information security. Agencies must ensure that information
                     security policies, procedures, and practices adequately protect resources.

              4.     Assessing agency IRM skills. As part of the Government Performance
                     and Results Act strategic planning and performance evaluation, agenc<es
                     are called on to assess:

                     a.      Personnel requirements regarding IRM knowledge and skills.
                     b.      The extent to which positions and personnel at executive and
                             management levels in the agency meet those requirements.
                             Agencies must develop strategies and plans for hiring, training, and
                             providing professional development to rectify weaknesses found.

       B.     Evolution of the Commission's IRM Organization and Process

In 1987, the U.S. General Accounting Office (GAO) conducted an audit of the overall operations
of the Commission. In lebruary 1987, the GAO issued a report entitled "Observations on the
Operations of the International Trade Commission." Appendix 1Il of that report dealt with the
Commission's IRl\1 activities.

The GAO report made two principal observations relating to lRM: (l) the Commission's
organization and management approach for IRM is fragmented, and (2) the Commission's
planning process for IRM is inadequate. Following are pertinent excerpts from the GAO report:

       We observed that lTC's organizational and management structure for information
       resources is fragmented. The planning process has not been sufficient to provide
       the information needed for the systematic acquisition and use of information
       resources. Comprehensive analyses required by federal regulations have not been
       performed and documented.

       The Paperwork Reduction Act requires that a senior official, reporting directly to
       the agency head, be accountable and responsible for all of the agency's IRM
       activities and functions. However, the lTC's designated senior official is not
       involved in many of these activities and functions.




                                                                   Office   0   Inspector General
                                               3                        [r.S.I'lfum'ltimJu Tru « Commission
                                                                                        OIG-AR-O 1-00



       Although the Director of Operations is lTC's designated senior official for
       information resources, he does not have the authority or responsibility for
       planning, directing, and controlling all JRM activities as prescribed in the PRA
       and implementing regulations. JRM responsibilities at ITC are dispersed among
       various program and administrative offices, a planning committee, and the
       Director of Operations. Each program and administrative office independently
       identifies information resource needs without direction from an approved Agency-
       wide IRM plan.

       JTC has not developed an overall JRM plan and has not established any policy or
       issued guidelines to implement a comprehensive planning process.

In order to address GAO concerns about "fragmented" organizational and management structure
for JR, the Commission engaged Arthur Andersen & Company (Arthur Andersen), at a cost of
$127,000, to review the Commission's organization for IRM. In its final report of [ulv 1988,
Arthur Andersen recommended a reorganization which would establish a separate Office of
Information Technology Planning, headed by a CIO, and move the Office of Data Systems from
the Office of Operations to the Office of Administration. The Commission did not accept the
recommendation for establishing a separate IT planning office. However, the Commission did
accept the recommendation for relocating the Office of Data Systems. The Commission also
contracted, at a cost of $ J ,400, with the GSA's FederallRM Planning Support Center (FIPSC)
to review the proposed move. In a report dated August 14, 1989, the FIPSC indicated its
agreement with the proposed establishment of an Office of Information Resources Management
(OIRM) under the Director of Administration.

Since 1989, the Commission's organization for IRM has undergone numerous changes. These
changes are detailed at Appendix V. The end result of these changes is that the Commission now
has essentially the same organization for IRM that it had before the GAO audit, In Section VII,
we take note of the continuing nature of the conditions initially observed by the GAO and offer
appropriate recommendations to address these conditions.

V.     COMMISSION'S CURRENT ORGANIZATION

There are four offices, the Office of Operations, the Office of Administration, the Office of
Information Services (OrS), and the Office of Publishing, that currently have the principal
responsibility for IRM within the Commission.' The organizational relationship between these
offices is shown in Figure I on the next page. The Director of the Office of Operations is
currently designated as the Commission's senior official for IRM and Chairman of the




       'Until recently, the Office of Fiuancc and Budget (OfB) was also involved in the JRM process
to the extent that it was responsible for managing the formulation, justification, presentation and
execution of the Commission's budget. However, on May 10, 2000, OFB was abolished,
Finance/accounting responsibilities were assigned to a new Office of Finance, and budgeting
responsibilities were assigned to the Director, Administration.
                                                                     Office   0   Inspector Genom!
                                                4                         L~S_ IJlt~rllc!ti()!tcl   rei   ~   C<)mmiosioll
                                                                                          OIG-AR-O 1-00


Information Resources Management Steering Committee (IRMSC)'. The Director of
Administration is responsible for all Commission procurement, including IT procurement. O[S
has the major responsibility for planning, management and operation of the Commission's non-
publishing-related IT resources. The Office of Publishing is responsible for planning, management
and operation of the Commission's IT resources for document preparation and publication. A
more detailed description of the functions and responsibilit ies of these offices and the IRM SC
is provided in Appendix IV.

                                 Figure I - USITC Organization
                                         U.S.lntl!mrtioll.1 Tr~de
                                               C...-nm""ion




        'The IRMSC is composed of the following members: Director, Office of Operations, Director,
Office of Administration, Director, OIS, Ceneral Counsel, Secretary, and the Director, Office of External
Relations, Adm. Order 00-08, dated August 25, 2000.

                                                               5               U.s. !",tem"ti""w ToLl' CYmmi.>sIQI'
                                                                                             OIG-AR-OI-OO


VI.      COMMISSION'S INVESTMENTS FOR INFORMATION RESOURCES

The Commission's current IT investments include a server-based local area network, an Oracle
database management system, a modern publishing facility, and audio-visual equipment. Each
employee has a desktop computer incorporating general and special purpose software,

In addition to these investments, the Commission utilizes substantial computing resources owned
by the U,S. Department of Interior (001) to perform IT functions for personnel, payroll and
accounting.

The budget data in Table I reflects the Commission's historical and planned IR investments.

Table I . ITC Budget for Information Resources
                Fiscal      All IR Except New IT       New IT              New IT                 Total
                Year        (Includes Personnel,       Equipment           Supplies
                            Contracts & Data           (Hardware)          (Includes
                            Processing)                                    Software}
 ors              1999                   $4,580,900           $302,100        $82,500               $4,965,500

                  2000                    6,103,700            600,000         [ 20,000                  6,823,700

                  2001                     6070800             785,000         145,000                   7,000,800

 Total                                 $16,755,400          $1,687,100       $347,500             $18,790,000

 Publishing       1999                   $1,171 ,900          $360,800       $166,700               $1,699,400

                  2000                    1,332,800            180,000        225,000                    1,737,800

                  2001                    I ,332,000           420,000        300,000                    2,052.000

      Total                              $3,836,700           $960,800       $691,700               $5,489,200


A flow diagram depicting the Commission's current process for selecting and funding IR
investments is provided in Figure 2 on the next page, The role of the IRMSC in this process is
to insure thatthe Commission's IR investments are aligned with the Commission's strategic plans
and objectives. The process shown in Figure 2 applies to IR projects included in the regular
budget cycle. Proposed new projects which have not been included in the regular budget cycle
are submitted to OIS for review. If funding is available, OIS can approve projects of less than
$25,000. Projects requiring more than $25,000 of funding are forwarded to the llUvlSC for
review and recommendation for approval.' Final approval of such projects is made hy the
Chairman and Commission.


        'According to AO 94·0 I, dated October 12, 1993 the threshold for review is $25,000, however,
Directors of Operations, Administration and OIS stated the IR1v1SC currently reviews projects that exceed
a $50,000 threshold.
                                                                         Office 0/ Inspector General
                                                   6                           u.s.   [,dcnw;lio..",;   r,.Qd~ Co>nmi$<iioll
                                                                                                                       OIG-AR-OI-OO


                         Figure 2 - Investment Pr.?cess for Information Resources




        Offic@s P'.. par ..
          and S u bmit
        Budget Requests




        QIS Reviewli IIrid                                            YOS    OFB Pfepa'"''                  B'-Idgel
           prepa re s IT       IRMSC REVIEW   f-_CAF'F'F{OVED1               Consolidated                 c ome-tnee
             BUdSl~1                                                            Budg .. t                   nevrew
                                                    NO




                                                                                               NO
                 ~~------------''------                                                              -<APp''-OVe[l1


                                                                                                                  YES




                                                                                                     NO
                                                    Commi~~iol'l
                                                         Review
                                                                       f--+-< APPROVI;:01 > - - - - - - - - - - '
                                                                              YES




                                                                                A.ppttlved Budget
                                                                                  To Congr .......




VII.   FINDINGS AND RECOMMENDATIONS

       A.           Designation of a Chief Information Officer

Currently the Director of Operations is designated as the senior official responsible for TRM
under PRA by AO 93- I5, Appointment of Senior Official for IRM, dated April 2, 1993. AO 93-
15 rescinded AO 90-08, which had designated the Director of Administration as the senior IRM
official under the PRA.

Section 3506 of the PRA was amended by Section 5125(a) of the Act by striking out "senior
official" and inserting "Chief Information Officer." The amended provisions of the PRA that are
of most significance to the Commission's organization for IRM are the following:

       (a)(2)(A)   the head of each agency shall designate a Chief Information
       Officer who shall report directly to such agency head to carry out the
       responsibilities of the agency under this chapter.{emphasis added)



                                                                                               Office       0    Inspector General
                                                                  7                                       U,S.IMtemutl<ltJo.l Tru ~ Commj.ssiotJ
                                                                                      OIG-AR-OI-OO



       (c) With respect to the collection of information and the control of paperwork,
       each agency shall - (I) establish a process within the office headed by the Chief
       Information Officer designated under subsection (a), that is sufficiently
       independent of program responsibility to evaluate fairly whether proposed
       collections of information should be approved underthis chapter, to    (emphasis
       added).

To fully comply with this statute, the Commission should appoint a CIO who reports directly
to the Chairman and who is independent of the Office of Operations.

       We recommend that the Commissi"" establish a separate position designated as the

 1     Commission's CTJiejIllji'rmatillll Officer, reportine directly to the Commission through the
       Chairman.

        •       Integrate the CIO [unctum into the Strategic Plan.
        •       Designate the C/O as a member ofthe budget committee.

        B.      Need for Organizational Change

There is a need at the Commission to design and implement a process for maximizing the value
and assessing and managing the risks of its IT acquisitions. The Commission's main product is
information of One kind or another. Given the limitations on human resources available to the
Commission for the foreseeable future, the Commission must rely on upgrading IT as the
principal means for improving products and services. To do this in a constrained funding
environment, the Commission must have in place an organization and a process that will yield
the greatest possible return on IT investment.

              1.      Integrated Management of IR

VVe found, as did the GAO, that the Commission's organization and management structure for
IR are fragmented. IRM responsibilities are currently dispersed among various program offices
(Operations and 015) and administrative offices (Publishing, Procurement and Finance and
Budget), the IRMSC, and the Director of Operations. As indicated in Table I, the Commission's
IT cost center responsibilities are split between 015 under the Director of Operations and the
Office of Publishing under the Director of Administration. In addition, OFB (see footnote I)
expended a large portion of 015 cost center funds on DOl support without significant input or
oversight by OIS. The PRISM procurement system under the Director of Administration is a
major IR system that is not receiving sufficient oversight by 015. Essentially, all the major
systems external to the Office of Operations are going their own way without central direction
and control. That direction has to come from an empowered, centralized office such as the
recommended CIO Office.



                                                                    Office 0/ Inspector General
                                                8                         lIS_ I"t~matjO>!Q1 TmdO! Commi;;"i(Jn
                                                                                         OIG-AR-OI-OO


                      a.      Integrated Procurement of IT

The proccss for procuring IT requires that the following functions be performed: (I) evaluation
of Commission requirements for IT, (2) development of specifications for hardware/software to
meet Commission IT requirements, (3) evaluation of hardware/software proposed to meet
Commission IT requirements, (4) managing development of new IT solutions or procurement
of existing IT solutions, and (5) managing installation and integration of hardware/software
procured to meet Commission IT requirements. The responsibility for performing these functions
is currently divided among several offices. There is a need for a single office, such as the
recommended cIa office, to provide centralized, intcgrated management of these functions in
order to efficiently allocate IT procurement funds among competing Commission priorities.

                      b.      Integrated Security Management

01 S has not been able to fulfill the Commission's requirements for security planning (see Section
Vfl. E). Placement of the security function in an office with a Commission-wide focus, such as
the recommended CIO office, would allow a better and more integrated approach to security
management for the Commission as a whole.

                      c.      Integrated Management of IR Personnel

The management of IRM personnel is scattered aCrOSS multiple offices. The various offices that
have IRM personnel management responsibilities such as 015, Office of Administration, OrB,
Offlce of Personnel, and Office of Publishing each have their own management approach. The
current organizational placement of 015 minimizes its effectiveness in fulfilling its intended role
of supporting integrated management of all the Commission's IRM personnel. The recommended
Cf O office can provide the needed focal point for integrated management of IRM personnel.

               2.      Commission-wide Support.

We found that OIS is more effectively meeting its responsibilities to the Office of Operations,
while not so effectively meeting other Commlssion-wide responsibilities. By virtue of the
organizational structure within the Office of Operations , OIS subordinates its Commission-wide
duties and responsibilities to the priorities of the Office of Operations. For example, a review of
the position description(PD) for the Director of 015 indicated that 13 out of 15 duties and
responsibilities of the position are Commission-wide in scope. The other two involve the Office
of Operations. However, the performance evaluation plan for the Director, OIS indicates that
his performance would be considered unsatisfactory if "Office of Information Services objectives
fail to reflect Office of Operations priorities."

                       a.     Rationalizing the Commission's Organization for IRM

We found that the preponderance of 015 responsibilities are Commission-wide in nature. Most
information system functions such as network maintenance, computer maintenance and
                                                                     Office of Inspector General
                                                 9                        u.s_ bd"rnub"~l<2) Trad.o COl/jmio;.,;lu>!
                                                                                       OIG-AR-OI-OO


telecommunications management provide support for the organization as a whole. OIS manages
the Commission network, e-mail services, and help desk which are Commission-wide. OIS is
responsible for the Commission's IT architecture, computer security plan and computer security
awareness training. OIS is responsible for the Commission's Strategic IRM plan and its update.
Most, if not all of the resources to perform these Commission-wide functions are concentrated
in OIS in the Office of Operations. It would be more logical to place these resources and
functions in an office with a Commission-wide orientation, such as the recommended CIO office.

                      b.      Implementing a Management Information System

The Commission's managers need up-to-date and relevant personnel and financial information
to effectively manage their resources. The source of this information is the personnel/payroll and
financial management system operated for the Commission by DOL OIS would be better able
to design and implement a system for distributing this information throughout the Commission
if it were placed in an office with a Commission-wide orientation such as the recommended CIO
office.

                      c.      Management of DOl Data Processing Services

DOl currently provides data processing services to support the Commission's personnel, payroll
and financial management functions. Current personnel in the Office of Administration do not
have sufficient expertise to monitor and manage the technical aspects of the services provided by
DOL

                      d.      Upgrading the Procurement System

The Office of Administration currently uses the PRISM acquisition tracking system to assist in
performing its procurement function. There appears to be a need to update the PRISM, or
acquire a new system, to provide more task automation, greater integration with the rest of the
financial system and more e-commerce functionality. The Office's contract specialists do not have
sufficient expertise to monitor and manage the technical aspects of such an upgrade. The
recommended CIa office should be capable of providing the necessary technical assistance for
this task.

               3.     Summary of Benefits from ReorganiZing         IRM Management

Consistent with past studies on this subject (Section IV. B), we conclude that it is in the best
interests of the Commission as a whole, to reorganize the Commission's management structure
so that the Office of Information Services and Office of Publishing report to the recommended
CIO office (See figure 3 on next page).

The following benefits would result:

        •      Demonstrated compliance with the Act and PRA.
                                                                    Office   0/ Inspector General
                                                10                       LI.S.   Inienwiional TraJ" C<J;mmi~$j(J1f
                                                                                         OIG-AR-OI-OO


                    Improved support for the Commission as a whole.
                    Resolution of the concerns expressed by the GAO in 1987 that the Commission
                    lacked a unitary approach to acquisition of IT resources.
      •             Development of systems and processes for disseminating personnel and financial
                    management information out to all parts of the Commission.
      •             Provision of the necessary expertise for technical management of DOl services.
      •            More efficient and more integrated approach to management ofthc Commission'
                   IT resources as a whole.
      •             Better and more integrated approach to security management.
      •            Creation of a more effective CIO position in which IRM responsibility is under
                   the direction of one person with the authority for the entire Commission.
      •             More integrated management of IT procurement.


     We recommend that the Commission modify its management structure so that the Office oj

2    Information Services and Office oj Publishing report t/J the CIO, when the position is
     established and filled,



                         Figure 3 - USITC Organization with Proposed CIO Office
                                           u.s. Intemational
                                           Judi> Comm;'isicn




              -,,"'
          I   Cl'<'iii,,"~




    II~;;-II




                                                                      Office o· Ins ector General
                                                               11           u.S,I'ltenw[i.:o,I<l   r..J <!   Com rn io:; joJl1
                                                                                        OIG-AR-OI-OO


       C,     The Commission's IRM Process


               I,     IRMSC
Designating a ClO to report to the Commission through the Chairman, and reorganizing the
Office of Information Services and Office of Publishing to report to the CIO, will centralize IRM
and eliminate the fragmentation of responsibilities observed by the GAO. Although these
recommendations are designed to centralize lRM, there is still the need for the IRMSC. The
IRMSC serves a useful purpose by performing independent reviews of lRM, and bringing
together both users and developers to provide the overall perspective needed to insure that the
Commission's IR are effectively applied to the Commission's strategic objectives. Thus, as the
principal user representative, the Director of Operations should continue to serve as IRM SC
Chairman, at least until our recommendations I and 2 are implemented.
One of the functions prescribed for the CIO by the Act is to "monitor the performance of IT
programs of the agency, evaluate the performance of those programs on the basis of the
applicable performance measurements, and advise the head of the agency whether to continue,
modify, or terminate a program or project." Since this is also what the Chairman, IRMSC
should be doing, it follows that, once appointed, the CIO should assume the Chairmanship of
the lRMSC.
Currently, the IRMSC is not effectively performing its aSSigned functions. In part, this lack of
effectiveness is due to gaps in established policies and, in part, to a lack of implementation of
established policies.
An example of a current policy gap is that AU 94-0 I does not provide for IRMSC review of the
Office of Publishing's budget. As indicated in Table I, the Office of Publishing accounts for a
significant portion of total Commission spending for IT. To be effective, the IRM process must
consider the entirety of the Commission's program for IT investments. Another policy gap is that
AO 94-01 does not provide for lRMSC follow-up reviews of programs once they have been
initially approved. This removes much of the management discipline required for successful
program execution.

The most serious shortcoming in the IRMSC, however, is the lack of activity. A review of IRMSC
minutes indicates that the committee meets infrequently and only in response to an external
request. Most recently, the Committee has not even met to consider the IT budget submission
and, instead, has relied on the Budget Committee to carry out these responsibilities. Without
an active and involved lIUvISC, the Commission's investments in IT will be lacking in the
strategic direction required to meet the Commission's overall performance objectives. We suggest
that the Chairman, IRMSC, plan a meeting schedule that more effectively implements the
objectives of AO 94-0 I, to include at least one annual meeting to consider the budget for IT
programs.




                                                                   Office of Inspector Genera!
                                               12                        u.s.   I~ltem ...ti()"w.J Trr:dG C..-.mlm,;;;icm
                                                                                        OIG-AR-O 1-00




      We recommend that the Director ~f Administration revise AO 94-01 to provide [or: (1)

3     designation <if the CIO as chairman lIf the IRMSC, (2) inclusion lIf the OjjJcet~fPublishi/lg
      Cost Center in the IRMSC budget review process, and (3)follltw-up reviews ofapproved IT
prllgrams to assess prllgress toward established goals.
               2.     Strategic Plan and Results-Based Management
Another shortcoming in the Commission's IRM proee", is the lack of criteria for measuring the
contribution of IT to the Commission's strategic objectives. Criteria are needed to evaluate the
worth of a particular IT investment and to determine if the IT investment has met the intended
objective.
PRA, Section 3506(b)(2), Federal Agency Responsibilities, provides that agencies are to develop
and maintain a strategic IRM plan prescribing how IRM activities help accomplish agency
missions. Based on the Act, Section 5 123, Performance and Results-Based Management,
paragraph (3), the Commission should prescribe performance measurements for IT assets now
being used, or that will be acquired, and determine if those performance measurements capture,
and quantify how well such assets support Commission programs.
The Strategic IRM plan is not fully effective in the IRM process because the plan is not being
updated. One management issue to be addressed is the need to assign specific responsibilities
and deadlines for the preparation of the plan.
OIS has drafted thc Commission's IRM Strategic Plan, The plan does not yet, however, provide
either performance goals and measurement criteria for the IRM function or a summary of the
Commission's computer security plan. Additionally, the Commission has not established results-
based evaluation criteria for managing IT assets.
The following recommendation is designed to enhance the Commission's framework for IT
management through the creation of a baseline IT plan and assignment of responsibilities for its
preparation and updating.

      We recommend that the Director, Office IIfInformation Services, finalize the IRM Strategic

4     Plan, The plan should include peJjllrmance gIla Is and results-based evaluation criteria filr
      managi'lg IT resources and a summary o] the cltmputer securiry plan, Upon appointment,
the CIO should be assigned the responsibilityfor annual review and update of the IRM Strategic
Piau.

       D.      Personnel Assessment

The successful application of IR in meeting the Commission's strategic goals and objectives is
heavily dependent on the knowledge and skills of Commission personnel who have IRM
responsibilities. As goals and objectives change and as technology changes, so must the required
knowledge and skills required by the Commission's IRM personnel. The Commission thus faces



                                                13
                                                                     o   'ce of I nspec/or General
                                                                           lIS_ ]"t~PI<.ltic"''' t.; e Commil>sio~1
                                                                                       OIG-AR-OI-DO


a continu ing challenge to identify the knowledge and skills required by its IRM personnel and
to meet these requirements through appropriate training and recruitment efforts.

The Act prescribes certain responsibilities for the agency CIO in maintaining the qualifications
of IRM personnel. These responsibilities are embodied in the following recommendation.

     We recommend that the Commission 's CIa annually pe,:!orm the following tasks as part

5    11 the strategic plan fling process:

        •      Assess the requirements establishedfnr Commission personnel regarding knowledge
               and skill in IRM and the adequacy I!f such requirements.
        •      Assess the-extent to which the positions mid personnel of the Commission meet
               those requirements.
        •      Develop strategies and specific plans for hiring, training and professional
               development as necessary to rectify airy deficiencies in meeting those requirements.
        •      Report to the Chairnrafl 11 th« Commissum 1m the prngress made in improving
               IRM capability.

Until appointment 11 a CIa, the Director, aIS should perform these tasks.

       E.      Security Plan

Vife noted the following characteristics about the Commission's information security plan:

               I.     Major information systems (the Federal Financial System and Payroll
                      Personnel Systems) outsourced via a memorandum of understanding with
                      DOl and linked to the Commission through telecommunications networks
                      are excluded. The Commission maintains a separate security plan for
                      Electronics Dockets Information System (EDIS), which was not integrated
                      into the Commission's computer security plan.

               2.     Security of certain categories of information was prescribed by older
                      Commission directives:

                      I.     Directive 1345, Information Security Program (7/31/90).
                      2.     Directive 1360.1, Automated Data Security Procedures (7/21/93).
                      3.     Directive 7102 I, Guidelines for Using the USITC Local Area
                             Network for Electronic Mail and Bulletin Board Purposes ([/8/90).
                      We saw no indication that these directives were addressed or
                      incorporated by reference in the information security plan.

               3.     Rules applicable to non-technical users were prescribed in the security
                      plan, but those applicable to systems personnel with high-level access to
                      the system were not adequately prescribed.
                                                                    Office 0/ Inspeetor General
                                               14                         v,s. lnfenmliom,l T:n.Id.! COl-nmls.;iiJrI
                                                                                       OIG-AR-O 1-00




               4.     The Commission has not approved the information security plan.

               5.      A summary of the security plan was not incorporated into the strategic
                       JRM plan (currently in draft),

Office of Management and Budget Circular A-130, Appendix !II, Security of Federal Automated
information Resources, Part A, Requirements, Section 3, Automated Information Security
Programs, provides that agencies implement and maintain a program to assure that adequate
security is provided for all in formation collected, processed, transmitted, stored, or disseminated
in general support systems and major applications, Part A, Section 3, paragraph a, Controls for
General Support Systems, part (2), System Security Plan, provides that agencies incorporate a
summary of security plans into the strategic IRM plan required by PRA and Section 8(b) of this
circular.

Section 5123 of the Act provides that agencies must ensure that the information security policies,
procedures and practices of the agency are adequate.

Our recommendation is designed to help strengthen the Commission's data security.

     We recommend that the Director, Office of Informattan Services, revise the information

6    security plan. The plan should address rules applicable to high-level systems users,
     contents of applicable previous security directives, security matters pertaining to
outsourced systems, and EDIS security. Upon appoinfmmt, the CIa should be assigned
responsibility for annual review and updating '1 the information security plan,




                                                 15
                                                                               0/
                                                                     Office Inspector General
                                                                          us- Irdcrn"iioJ>"'! Trad" Comm'ssi"rr
                                                                                        OlC-AR-OI-OO


VIII. SUMMARY OF RECOMMENDATIONS

Based on our review of the Commission's IRM function and recent legislation pertaining to IIZM,
we recommend that:

       I) The Commission establish a separate position designated as the Commission's Chief
       Information Officer, reporting directly to the Commission through the Chairman, and
       that the Commission integrate the CIO function into the strategic planning process and
       designate the CIO as a member of the budget committee.

       2) The Commission modify its management structure so that the Office of Information
       Services and Office of Publishing report to the CIO, when the position is established and
       filled.

       3) The Director of Administration revise AO 94-0 I to provide for: (I) designation of the
       CIO as Chairman of the IRMSC, (2) inclusion of the Office of Publishing Cost Center in
       the IRMSC budget review process and (3) follow-up reviews of approved IT programs to
       assess progress toward established goals,

       4) The Director, Office of Information Services, finalize the IRM Strategic Plan. The plan
       should include performance goals and results-based evaluation criteria for managing IT
       resources and a summary of the computer security plan, Upon appointment, the CIO
       should assume responsibility for annual review and update of the IRM strategic plan.

       5) The CIO make an annual assessment of the knowledge and skill requirements of IRM
       personnel and the extent to which these requirements are being met. The CIO should
       develop plans for remedying any deficiencies and should report to the Chairman on the
       progress being made in improving IRM capability. Until appointment of a CIa, the
       Director, OIS, should perform these tasks.

       6) The Director, Office oflnformation Services, revise the information security plan. The
       plan should address rules applicable to high-level systems users, contents of applicable
       previous security directives, security matters pertaining to outsourced systems, and EDIS
       security. Upon appointment, the cIa should be assigned responsibility for annual review
       and updating of the information security plan.




                                                                   Office of Inspector General
                                               16                        i: S,   InlemQtiOll'll   Trad.. C<Jmmls~i<Jtl
                                                                                        OIG-AR-OI-OO


APPENDIX I
                              METHODOLOGY AND SCOPE

Cotton & Company, LLP was retained by the Office of Inspector General, to review the
Commission's IRM function, with emphasis on the Commission's progress towards implementing
the Clinger-Cohen Act. We performed our work according to the criteria established by the
General Accounting Office's Yellow Book as applicable. These standards require that we obtain
sufficient relevant data to afford a reasonable basis for our conclusions and recommendations.

When performing our work we considered the Commission's size and the benefits of maintaining
its current level of operating efficiency with future costs that may result from our
recommendations. Our recommendations are intended to maintain the present level of efficiency
in the Commission's use of personnel resources, within the requirements of the Clinger-Cohen
Act and relevant regulations.

As part of this engagement, we considered the Clinger-Cohen Act, the Paperwork Reduction Act
of 1995, The Chief Financial Officers' Act of 1990, the Federal Acquisition Streamlining Act of
1994 (Title V), and the Government Performance and Results Act of 1993.

We also considered relevant Federal regulations including:

               1.0MB Circular A-II, Preparation and Submission of Budget Estimates;

               2.     OMB Circular A-130, Management of Federal Information Resources;

               3.     OMB Memorandum M-97-02, Funding Information Systems Investments;

               4.     Executive Order 130 II, Federal Information Technology: and

               5.     Other guidance issued by the Chief Information Officers' Council.

Additionally, we studied the Directives and Administrative Orders issued by the Commission
relating to IRM policies and procedures. We studied mission statements of specific offices and
organizational units that are involved in IT management. We reviewed the Commission's budget
presentations to Congress, the five-year Strategic Plan, the five-year IT Strategic Plan currently
in draft, and the Commission's Computer Security Plans. We studied previous relevant audit
reports issued by the Commission's, IG, GAO, and other pertinent consultant reports issued to
the Commission's management.

We interviewed the directors of the offices of operations and administration and some of their
senior staff. We also interviewed and corresponded with the director of the 015. In addition, the
OIG contacted office directors in the Office of the Secretary, Office of the General Counsel,
Office of Economics, Office of External Relations, Office of Equal Employment Opportunity,

                                                                    Office ofInspector- General
                                               I-I                       [o'S   blil!-m{ib'OJlll!   Tr,,-J~ C()lmHi';~',<m
                                                                                         OIG-AR-())-OO


APPENDIX I

Office of Industries, Office of Investigations, Office of Tariff Affairs and Trade Agreements, and
Office of Unfair Import Investigations.

We assessed how effectively the Commission has implemented the provisions of the Clinger-
Cohen Act and the Act's associated legislation and regulations. We identified certain areas where
the Commission is not in compliance with the Clinger-Cohen Act and the Act's associated
legislation or regulations; and we identified areas that need improvement, and developed
appropriate findings and recommendations.

No limitations were placed on the scope of Our work by the Commission, and we were provided
all information that was necessary to analyze, investigate and document the facts to formulate
our findings and recommendations,

\lVe conducted our work during May to July 1999, and coordinated the [011 ow up with the IG
and Commission management into the summer of 2000. VVe express our appreciation for the
cooperation extended to us by office directors and staffs of the Offices of Operations,
Administration, and Information Services, Secretary, General Counsel, Economics, External
Relations, Equal Employment Opportunity, Industries, Investigations, Tariff Affairs and Trade
Agreements, and Unfair Import Investigations.

An exit conference was held on January 24, 2000 with Charlie Hayward and Mano Covindara],
Auditors, Cotton & Company LLP: Pamela Dyson, Director, Office of Publishing: Lynn
Featherstone, Director, Office of Invest igations: Martin Smith, Director, OIS; Steve Mclaughlin,
Director, Office of Administration; Paul Bardos, Assistant General Counsel, Office of General
Counsel, Judith Borek, Auditor, Office of Inspector General; and Linda Linkins Assistant to the
Director, Office of Operations,




                                               1-2
                                                                    Office     0/
                                                                               Inspector General
                                                                         us, Inicmo:.llioJllJI Tr'ld~ CuJt/m,,,siol]
APPENDIX II                                                                         OIG-AR-O 1-00


         SUMMARY OF IRM PROVISIONS OF THE CLINGER-COHEN ACT

I.     THE CLINGER-COHEN ACT

What is now known as the Clinger-Cohen Act was originally enacted as Division D, Federal
Acquisition Reform Act, and Division E, Information Technology Management Reform Act
I Public Law (PI.) 104-106 J, of the National Defense Authorization Act for Fiscal Year 1996 (PL
104-450). Divisions 0 and E were renamed as the Clinger-Cohen Act by the Omnibus
Consolidated Appropriations Act (Pl. 104-208) of 1997.

II.    OMB REQUIREMENTS

The Clinger-Cohen Act requires OMB to:

               I.     rssue directives to executive agencies regarding capital planning and
                      investment control, revisions to mission-related and administrative
                      processes, and information security;

               2.     Promote and improve the acquisition and usc of IT through performance-
                      based and results-based management;

               3.     Use the budget process to analyze, track, and evaluate the risks and results
                      of major agency capital investments in IT information systems, and
                      enforce accountability of agency heads; and

               4.     Report to Congress on the agencies' progress and accomplishments.

The Clinger-Cohen Act amends the Paperwork Reduction Act (PRA) to require executive agency
heads to appoint CIOs at a senior level, responsible forthe agency's IRM activities and reporting
directly to the agency head.

III.   EXECUTIVE AGENCY REQUIREMENTS

The Clinger-Cohen Act provides that Executive Agencies are to:

               I.     Design and implement a process for maximizing the value and assessing
                      and managing the risks of IT acquisitions. The Clinger-Cohen Act lists
                      specific elements agencies must include in that process and requires
                      integration of the process with the processes for making budget, financial,
                      and program management decisions.




                                              II-I
                                                                    Office   of Inspector General
                                                                         us   bJt~r/ldti<JJlul TmCk C<Jmmi3~j()n
APPENDIX II                                                                       OIG-AR-OI-OO



             2.      Analyze agency mission-related processes and administrative processes,
                     revising them as appropriate, and they must benchmark their processes
                     against comparable processes of public or private sector organizations.

             3.      Ensure that information security policies, procedures, and practices are
                     adequatc to protect the agency's resources.

             4.      Assess, as part of the Government Performance and Results Act strategic
                     planning and performance evaluation process, (I) requirements for agency
                     personnel regarding knowledge and skills in IRM, and (2) the extent to
                     which positions and personnel at executive and management levels in the
                     agency meet those requirements. Agencies must develop strategies and
                     plans for hiring, training, and professional development to rectify any
                     deficiencies found.

IV.    SUMMARY OF RELEVANT CLINGER-COHEN ACT SECTIONS

Relevant sections of the Clinger-Cohen Act are summarized and discussed below:

      A.      Section 5002. Definitions. Provides definitions of key IT terms, including the
              following:

              I.     Information Technology: Any equipment or interconnected system or
                     subsystem of equipment, that is used in the automatic acquisition, storage,
                     manipulation, management, movement, control, display, switching,
                     interchange, transmission or reception of data or information by the
                     executive agency.

              2.     information Resources: Information and related resources such as personnel,
                     equipment, funds, and IT.

              3.     Information Resources Managl'mcnt: The process of managing information
                     resources to accomplish agency missions and to improve agency
                     performance, including through the reduction of information collection
                     burdens on the public.

       B.     Section 5 I 13. Performance-based and results-based management. Describes
              the functions and duties of the Director of Office of Management and Budget.
              Emphasis is on Capital Planning and Investment Control (Section 5112), and
              Performance-based, Results-based management (Section 5113). The Clinger-
              Cohen Act explicitly requires proper compliance with the PRA. Subtitle B,
              Director of t.he Office of Management and Budgct, Section 511 I, stales: "In
              fulfilling the responsibility to administer functions assigned under ... 144 USC
                                                                  Office ofInspector General
                                             11-2                      U,S l~,t~muti{)llul   rreld.. Commis.;ILtJ1
APPENDIX II                                                                          OIG-AR-OI-DO


          Chapter 35] the director shall comply with this title with respect to the specific
          matters covered by this title."

     C.   Section 5121. Responsibilities. In the context of 44 USC Chapter 35, provides
          that the agency head is to comply with the provisions of Clinger-Cohen Act in
          fulfilling the duties under the PRJ\.

     D.   Section 5122. Capital planning and investment control. Provides that the
          Agency Head is to design and implement in the agency a process for maximizing
          the value and assessing and managing the risks of the IT acquisitions of the
          executive agency. Several requirements for this process arc described. They
          include:

              I.    Criteria to be applied for acquisition of IT,

          2.        Selection of investments in keeping with those criteria;

          3.        Monitoring the progress of IT investments;

          4.        Management of IT investments;

          5.        Evaluation of the results of such investments, and;

          6.        Integrating these with the budget, financial and program management
                    decisions of the agency.

     E.   Section 5123. Performance and results-based management. Provides the
          Agency head is to;

              I.    Establish goals for improving the delivery of services to the public through
                    the effective me of IT.

              2.    Prepare an annual report to be included in the budget submlssion to
                    Congress on the progress towards achieving these goals.

          3.        Ensure that performance measurements are prescribed for IT used or
                    acquired for the agency, and that these measure how well the IT supports
                    the agency's programs.

              4.    Ensure the information security policies, procedures, and practices are
                    adequate.

     F.       Section 5124. Acquisitions of information technology. This section deals
              with the authority of Agency Heads to acquire IT.
                                                                    Office 0 I nspeetor General .
                                             II-3                        u. $. Illicmuti<Jllu Trcl e G"nmissioll
APPENDIX II                                                                    OIG-AR-01-00



     G.   Section 5125. Agency Chief Information Officer. Section 5 12 5(a) modifies
          Section 3506 of PRA by striking out the term "Senior Official" and replacing it
          with a new designation, "Chief Information Officer".

          According to Section 5125(b), an executive agency CIO is responsible for the
          following:

          I.       Providing advice and other assistance to the head of the executive agency
                   and other senior management personnel to ensure that IT is acquired and
                   IR are managed for the executive agency, in a manner that is consistent
                   with this act and the Paperwork Reduction Act.

          2.       Developing, maintaining and faCilitating the implementation of a sound
                   and integrated IT architecture for the agency.

          3.       Promoting the effective and efficient design and operation of all major
                   IRM processes, including improvements to work processes of the agency.

          Section 5I25(c) applies to the duties and qualifications of Chief Information
          Officers of Federal agencies listed in 31 USC Section 90 I (b). The Commission is,
          however, not one of the agencies listed in 3 I USC 90 I (b). The conference report
          accompanying the Clinger-Cohen Act provides that the conferees intend that
          ClOs, in agencies other than those listed in 31 USC Section 901 (b), perform
          essentially the Same duties as CIOs in those agencies.

          Section 5 I25(c)(3)(A) through (D) require that executive agencies must:

              I.   Assess the requirements established for agency personnel regarding
                   knowledge and skill in IRM.

          2.       Assess the extent to which the positions and personnel at the executive
                   level of the agency and the positions and personnel at the management
                   level of the agency below the executive level meet those requirements.

          3.       Rectify any deficiency in meeting those requirements; develop strategies
                   and specific plans for hiring, training and professional development.

          4.       Report to the head of the agency on the progress made in improving IRM
                   capability.

     H.   Section 5126. Accountability. This section requires that each agency head is
          accountable to ensure that the accounting, financial, and asset management and
          other information systems are designed, developed, maintained, and used
                                                                        0/
                                                               Office Inspector General
                                          U-4                       os 11rfcmaHcmaf TruJ~ C)mmi,,5rO>J
Al'PENDIX II                                                                  OIG·AR-O j-OO


           effectively to provide financial and performance data for financial statements. This
           section also requires such information to be reliable, consistent, and timely. The
           head of the agency is also accountable to ensure that the statements support
           assessments and revisions of mission-related processes and administrative
           processes of the executive agency and the capability to measure performance of
           investments made by the agency.

      L    Section 5127. Significant deviations. The head of each agency is responsible
           under Section 3506(b)(2) to identify any major IT acquisition program that has
           significantly deviated from cost, performance or schedule goals established for the
           program. Subtitle D provides descriptions of certain responsibilities regarding
           efficiency, security and privacy of federal computer systems, most of which are
           under the authority of the Secretary of Commerce. Subtitle E applies to national
           security systems, and does not need detailed consideration for this audit.

      J.   Section 5201. Procurement procedures. The federal Acquisition RegulatOlY
           Council shall ensure that the process for acquisition of IT is simplified, clear, and
           understandable and provides the capability to incorporate commercial IT in a
           timely manner.

      K.   Section 5402. Identification of excess and surplus computer equipment.
           Not later than six months after the enactment of this Act, the head of each agency
           is responsible to take an inventory of all computer equipment under the control
           of that official. In turn, in accordance with title II of the Federal Property and
           Administrative Services Act of 1949, the head of the agency will maintain an
           inventory of excess or surplus computer equipment.




                                                                 o
                                           11-5
APPENDIX III                                                                         01 C~AR-O I -00

     SUMMARY OF IRM PROVISIONS OF THE PAPERWORK REDUCTION ACT

I.     THE PRA OF 1995

The purpose of the Paperwork Reduction Act (PRA) is to minimize the public's paperwork
burdens resulting from the collection of information by or for the federal government, to
coordinate federal information resource management policies, to improve the dissemination of
public information, and to ensure the integrityofthe federal statistical system. PRA also requires
agencies to indicate in strategic information management plans how they arc applying IR to
improve the product ivitv, efficiency, and effectiveness of government programs, including
improvements in the delivery of services to the public.

PRA requires OMB, in consultation with agency heads, to set annual government-wide goals for
the reduction of information collection burdens by at least 10 percent during fiscal years j 996
and 1997 and 5 percent during each of the next 4 fiscal years. It also requires OMB, in
consultation with agency heads, to set annual agency goals that reduce information collection
burdens imposed On the public to the maximum extent practicable. Agencies cannot conduct or
sponsor a collection ofinformation unless the agency has taken a number of specified actions and
OMB has approved the collection, rho ugh the full Commission may void an OMB disapproval.
OMB may not approve the collection of information for a period in excess of 3 years. PRA
requires OMB to conduct pilot projects to test alternative policies and procedures.

Relevant sections are summarized below.

       A.      Section 3502. Provides some definitions, included          In   the following sub-
               paragraphs:

               I.     The term 'information resources' means information and related resources,
                      such as personnel, equipment, funds, and IT.

               2.     The term 'information resources management' means the process of
                      managing IR to accomplish agency missions and to improve agency
                      performance, including through the reduction of information collection
                      burdens on the public.

               3.     The term 'information system' means a discrete set of IR organized for the
                      collection, processing, maintenance, use, sharing! dissemination, or
                      disposition of information.

               4.      The term 'information technology' has the same meaning as the term
                       'automatic data processing equipment' as defined by Sections] I I (a)(2)
                       and (3)(c)(i) through (v) of the Federal Property and Administrative
                       Services Act of 194940 USC Sections 759(a)(2) and (3 )(c)(i) through (v).


                                                                    Office of Ins ector General
                                              III-I                      u.s.           e Cc;.mmi5sion
                                                                               f,lt<!H"lh'<l1I<l   r<.l
APPENDIX III                                                                OIG-AR-0I-00


     B.    Sections 3503, 3504 and 3505. Describes the setting up of an Office of
           Information and Regulatory Affairs under the Office of Management and Budget
           (OMB) and the functions of the Director, OMS and this office.

     C.    Section 3506. Federal agency responsibilities.

           I.    Subsection (a)(2) (A) requires that a "senior official" be designated to carry
                 (Jut the agency's responsibilities under this act. This senior official is to
                 report to the Head of the Agency. Note: Section 5125 of the Clinger-
                 Cohen Act amended the words "senior official" to Chief Information
                 Officer.

           2.    Paragraph (a)(3) requires that this senior official head an office responsible
                 for ensuring agency compliance with the IRM responsibilities established
                 under this chapter.

           3.    Subsection (a)(4) states that, "Each agency program official shall be
                 responsible and accountable for IR assigned to and supporting the
                 programs under such official", and "shall define program information
                 needs and develop strategies, systems and capabilities to meet those
                 needs." Under this section, it would appear that all departmental heads
                 of the Commission are responsible to acquire sufficient knowledge about
                 l1U\-1, so as to satisfy this section.

           4.     Paragraph (b)(2) states "in accordance with guidance by the Director,
                  [each agency shall] develop and maintain a strategic IRM plan that shall
                  describe how IRM activities help accomplish agency missions."

           5.     Paragraph (b) subparagraph (3 )(A) states "ensure that IRM operations and
                  decisions are integrated with organizational planning, budget, financial
                  management, human resources management and program decisions".

           6.     Paragraph (h) deals with Federal Information Technology, and states that
                  each agency shall, among others:

                  a.     Assume responsibility and accountability for IT investments.

                  b.     Promote the use of IT by the agency to improve the productivity,
                         efficiency, and effectiveness of agency programs.




                                                                o
                                         1lI-2
APPENDIX IV

   FUNCTIONS AND RESPONSIBILITIES OF IRM OFFICES AND THE IRMSC

     A.   Office of Operations. The Office of Operations is responsible for
          coordinating and directing the Commission's investigative, analytical, and
          research work. The Director of Operations reports directly to the Commission
          and currently has the following IRM-related responsibilities:

          I.     Designated as the Senior Official for IRM in accordance with the PRA

          2.     Serving as Chairman of the IRM Steering Committee (IRMSC).

          3.     Serving as Chairman of the Information Security Committee.

     B.   Office of Infonnation Services. OIS is responsible for providing IT support
          for all program, administrative, and executive offices of the Commission. The
          Director, OIS, reports to the Director of Operations. Specific IRM-related
          responsibilities of Director, OIS include:

          I.     Administering the Commission's computer network, major application
                 systems, and voice and data communications system, including Help
                 Desk service.

          2.     Implementing major IT projects, including analysis of requirements and
                 research of technical alternatives; technical assistance for acquisition of
                 outside products and services; and installing, configuring, and
                 troubleshooting system components.

          3.     Developing and maintaining computer systems and programs to
                 produce analytical reports on international trade and related data.. and
                 other computer applications required by the Commission, using a
                 variety of programming languages and tools.

          4.     Maintaining the central database facility of the Commission, including
                 the Commission's database of international trade and tariff
                 information.

          5.     Supporting program offices through acquisition and distribution of
                 information content in any medium (paper, electronic), and
                 coordinating information requirements agency-wide.

          6.     Operating or supporting the Commission's Web sites.

          7.     1V1anaging the computer and information systems security program.



                                                              Office 0/ I nspeetor General
                                         IV-l                       lJ.   e. ],dcrnuficmal] zz ezziz:
APPENDIX IV                                                                        OIG-AR-O 1-00

          8.     Managing the Commission's records management program. Managing
                 and establishing procedures for accountabilitv of ADP equipment.

          9.     Coordinating strategic and operating plans, and an information
                 architecture that promotes the goals of the Commission.

          10.    Serving on the lRMSC

          [1.    Serving On the Information Security Committee.

     C    Office of Administration. The Office of Administration is responsible for
          coordinating, directing and controlling the administrative and management
          functions of the Commission. The Director of Administration reports directly
          to the Commission. IRM-related responsibilities of the Director of
          Administration include:

          I.     Managing all IT procurement.

          2.     Chairing the Budget Committee.

          3.     Serving on the IRMSC.

          4.     Serving on the Information Security Committee.

          5.     Serving as the Personnel Security Officer for the Commission.

          6.     Supervising lR in Publishing, OrB and Procurement.

     D.   Office of Publishing. The Office of Publishing is responsible for supporting
          the Commission's requirements for production of text, audiovisual and
          broadcast material. The Director, Office of Publishing reports to the Director,
          Office of Administration. IRM-related responsibilities of the Director of
          Publishing include:

          I.     Administering the publishing management program, which includes
                 Government publications design and composition, visual design and
                 presentation, electronic file preparation, and printing functions (both
                 electronic printing and traditional offset printing and binding).

          2.     Maintaining an independent computer publishing and digital printing
                 network. Responsible for all property management matters associated
                 with the independent network.

          3.     Administering and maintaining all   agcnL)'-\\~de   publishing programs.

                                                              Office of Inspector General
                                        [V-2                          lIS.   Il'Iil!m'1f1QIl<1!   Tr.:J.J~ COll1mi";~·I(;1I
AlJPENDIX IV                                                                   OlG-AR-OI-OO


           4.     Managing the budget and accounting for the centralized agency-wide
                  publishing cost center.

           5.     Administering and managing the agency-wide audiovisual and cable
                  broadcast programs.

                  a.     Developing and disseminating agency-wide guidance on report
                         layout and design, publication production guidelines, and
                         printing and finishing processes in coordination with the
                         program offices.

                  b.     Developing and providing technical support, training, and
                         guidance on publication production, electronic composition,
                         digital printing, formatting and converting electronic documents
                         for printing, and electronic file preparation in coordination with
                         the program offices.         .

     E.    Information Resources Management Steering Committee (IRMSC). The
           rRMSC is responsible for establishing IRM policies and procedures, identifying
           IRM requirements and establishing IRM priorities, based On the requirements
           of the Commission as a whole. The IRMSC is charged with the responsibility
           to ensure that IRM initiatives have top management support. The IRMSC also
           is responsible for assisting the Senior Agency Official for IMI (The Director of
           Operations) in coordinating major IRM initiatives. In particular, the IRMSC is
           responsible for:

           I.     Coordinating and integrating the strategic IRM plan with the
                  Commission's budget process.

           2.     Creating standards and procedures for managing and coordinating
                  decentralized information systems.

           3.     Promoting:
                  a.    "Top-down" centralized management of information life-cycle
                        activities and IRM functions.
                  b.    An integrated approach to lRM.
                  c.    The cost and value of rRM.
                  d.    The use of new technologies to improve the effective use and
                        dissemination of information.




                                                              Office of Inspector Geneml
                                         IV-3                       u». InfcmcdiOJ",1 Toade c:,'.I1/nl:';$i.;Jn
APPENDIX IV                                                            OJ G-AR-O 1-00


          4.   Periodically reviewing all IRM expenditures with the IRM cost centcr
               managers as well as reviewing and approving:
               a.     The annual IRM cost center budget from the Director, OIS, in
                       coordination with the Commission's program managers.
               b.     IRM expenditures not provided in the lRM cost center budget,
                      or in excess of $25,000. Directors of Operations, Adrnlnistration
                      and OIS state the threshold they usc [or review is $50,000.

          5.   Assisling the 015 and the Procurement Division in the acquisition of
               IRM goods and services.

          6.   Establishing IRM subcommittees and working groups as needed.

          7.   Preparing an assessment of personnel resources and IT skills, including
               those in the OIS and other of the Commission's offices; and developing
               a plan for using those resources, including defining responsibilities and
               roles for Commission personnel outside OIS that possess technical
               proficiency in automation skills.

          8.   Overseeing periodic reviews of selected IRM program activities for
               compliance with General Services Administration and OMB review
               programs.




                                      IV-4
APPENDIX V                                                                                         OIG-AR-O I ·00

                   HISTORY OF CHANGES IN THE COMMISSION'S
                       ORGANIZATION FOR IRM SINCE 1989

Prior to J 989, the Commission's JRM function was primarily the responsibility of the Office of
Data Systems in the Office of Operations. Based on the Arthur Andersen study in 1988 and
GSAs Federal IRM Planning Support Center (F1PSC) review in 1989, organizational changes
were made which transferred the IRM function to the Office of Administration.

Figure 4 - USlTC Organization                                  January 23, 1999
                                                                                  In October 1989, the Library
                                                                                  Services Division of the Office
                     u.s,   trlwm,fu",,1 Tr>do CQ(nrrl,HIQIl
                                                                                  of Dat a        Systems was
                                                                                  transferred to the Office of
                                    CDIoIlIlflSOtl   J                            Administration, reporting to
                                                                                  the Director of Administration.
                                                                                  In December 1989, the
                                                                                  remainder of the Office of Data
                                                                                  Systems, including the
                                                                                  Statistical Services Division,
                                                                                  was moved to the Office of
                                                                                  Administration             and
         IL~I~
           ~Oo.d
                                                                                  redesignated as the OIRM.
                                                                                  Also, in December J 989, the
                                                                                  Director of Administration
                                                                                  replaced the Director of
                                                                                  Operations as the designated
                                                                                  senior official for IRM.


Figure 5 - USITC Organization




                                                                                   Office of Inspector General
                                                                  V-I                    u.s. 11demati';"aJTrild~   C"'mmi"5ioll
APPENDIX V                                                                          OlG-AR·O I-00

With regard tothe Information Systems Planning Committee (IS PC), an advisory body reporting
directly to the Chairman, Arthur Andersen recommended that It be changed to allow for senior
management involvement and a mechanism for user representation Lhrough subcommittees. The
FIPSC also recommended a committee of more senior managers and a change in tit.le t.o reflect.
its responsibilities for IRM. The Chairman agreed with these rccommcndntions and on January
5, J 990, issued Administrative Order (AO) 90-09 which abolished the ISPC and established the
Information Resources Management Steering Committee (lRMSC). The Director of
Administration was designated as the Chairman of the Committee. Other members included t.he
Director of Operations, t.he
Executive Assistant to the Figure 6 • USlTC Organization                   January 7, 1993
                                                           ------
Chairman, the Director of
OIRM, and three rotating
members. The primary mission
of t.he [RMSC was to oversee
long range [RM planning and to
review and approve a long range
plan developed by the Director,
01 RM         Lo    meet.    the
Commission's IT needs.
Subsequently, the Director,
Office of Operations was
designated Chairman of the
IRMSC by AO 93-16, dated
April 7, 1993.                     ~!~
                                      ..-
                                       Q,....",




In January 1993, the Library
Services office and the Statistical   Figu!e7 - USITC Organizat_io_n                  A_p~I_il 4, 1993
Services component of OIRM
were moved from the Office of
Administration back to t he
Office of Operations (see Figure
6).

In April 1993, the Director,
Office of Operations, was
designat.ed as the senior official
for IRM replacing the Director
of Administration in that
capacity. Also, in April 1993,
the rest. of OIRM was moved to
the Office of Operations (see
figure 7) and, in February 1994,
was combined with Library


                                                                 Office o{lnspector General
                                                  V-2                  us. l"t~mJtio'Jnl Tr.:1d<l Commi;1.>i01/
APPENDIX V                                                                          OIG-AR-OI-00

Services and Statistical Services to form what is now Office of Information Services (OIS) (see
Figure 8).

A review of Commission records does not indicate the existence of any study. such as preceded
the 1989 move, to justify the return of OIRM to the Office of Operations. Commission
employees attributed these organizational changes to a perceived lack of responsiveness by the
Office of Administration to the requ irements of the Office of Operations and to personnel issues
within the Office of Administration.

In February 1994, a former employee in the Office of Economics was appointed as the Director
OIS and currently remains in that position. The former head of OIRM was appointed as the
Assistant Director. These appointments could be interpreted as signaling a decreased emphasis
on the role of OIS in supporting Commission-wide IR requirements and an increased emphasis
on supporting Office of Operations requirements.

OIS is presently an office within the Office of Operations. OIS is now comprised of three
Divisions: Library Services, Statistical and Editorial Services Division, and Information Systems
Division.



Figure 8 - USITC Organization              March 6, 1994




                                                                   Office of Inspector Geneml
                                               V-3                       1,/,S.I!lkn/l.1tirmu!Tr."d~C.,mmj~I>I"ll
Chairman                                                        Appendix VI




UNITED STATES INTERNATfONAL TRADE COMMISSION

                              WASH1NGTON, DC 20436




Septernber 25,2000                                                       C074-X-015

MEMORANDUM

TO:         Acting Inspector General

FROM:       Chairman Koplan

SUBJECT: Agency response to recommendations 1-6 of Draft Report 0IG-AR-0 1-00
         (Review ofthe Commission's IRM Function)

1.     We recommend that the Commission establish a separate position designated
       as lTC's Chief Information Officer, reporting directly to the Commission
       through. tke Chnirman. We also recommend that the Commission: integrate
       tire CIOfunction into the strategic planning process; designate the CIO as a
       member oftire budget committee.

Response: Agree, in part

Agreement with this recommendation is limited to the establishment of a Commission
CIO and the integration of the CIa function into the strategic planning process and
budget committee. As noted below, the Executive Review Board (ERB) is evaluating
where in the organizational structure the cia fits and to whom the cia reports.

Plan for Implementation:

On May 4, 2000, Chairman Bragg sent a memorandum to you noting her belief that
there was general consensus among the Commissioners in support of the proposed
creation of a separate position designated as the agency's CIO. The memorandum
notes, however, that given the Commission's uncertain financial position at the time,
implementation of the proposal would have to wait until the Commission's funding
level was more certain.

Since that time our funding situation has stabilized somewhat. Therefore, I have asked
the ERB to followup on the initial proposal with the understanding that any final action
that would be taken would remain dependent on our fiscal situation. The ERB
has begun the process of preparing a description of the duties and responsibilities of
the CIa position. The ERB expects to complete this task by December 2000.

2.     Recommend that the Commission ItUJdify its management structure so the
       Office ofInformation Services and Office ofPublishing report to the CIO,
       when the position is established and filled.

Response: Agree, in part

Plan for implementation:

The ERB will carefully evaluate and address the issue of organizational structure in its
review of the creation of a CIO position. The question of what. if any, offices or
functions should report to the CIO is receiving scrutiny from the ERB. Their report to
me will include a recommendation on this matter.

3.      file recommend that the Director ofAdministration revise AO 94-01 to
       provldefor: (1) designation ofthe CIO as chairman ofthe IRMSC, (2)
       inclusion of the Office ofPublishing Cost Center in the IRMSC budget
       review process and (3) followup reviews ofapproved IT program to assess
       progress toward established goals.

Response: Agree

Plan for implementation:

Once the duties and responsibilities of a CIO have been defined by the ERB and
agreed upon by the Commission, as noted above, the Office of Administration will
revise any and all affected Administrative Orders.

4.     Finalize the IRM Strategic Plan, to include performance goals and results-
       based evaluation criteria for managing IT resources and a summary ofthe
       computer security plan.

Recommended response: Agree

Plan for implementation:

The IRM Strategic Plan is a key document for defining how the agency will use
information technology and resources to help achieve goals defined in the USITC
Strategic Plan and Performance Plan. The IRM Plan will be updated annually by the
CIO I and will address goals identified in the annual update of agency Performance
Plan as well as other requirements for improving current operations and the evolution
ofthe agency's IT Architecture. The target for completion of the annual update will be
October I.

The following tasks are planned to linalize the IRM Strategic Plan for FY200112005:


        I   By the Director, DIS. pending appointment ofa CIO.

                                             2
(1)    OIS will complete the review ofprograrn office requirements and plans that
       was started in early June. This information will be used in conjunction with
       the agency Strategic Plan and the FY200112002 Performance Plan to identify
       priority targets for application of information resources.

(2)    OIS will finalize elements of the Plan relating to management ofIT staff
       resources and internal processes, including process performance measures.
       Where applicable, these measures will be validated with agency staff
       representatives (e.g., via the Technical Review Committee ofthe IRM/Sc.)
       01S will also prepare a summary of the Information Security Plan for
       incorporation in the Strategic Plan.

(3)    OIS will consult with the Chairman of the IRMISC and the Chairman of the
       Budget Committee as the agency's likely FY2001 resource situation becomes
       clear to adjust the plan's near-term objectives.

(4)    OIS will coordinate with the Chairman of the Strategic Planning Committee to
       make sure the IRM Strategic Plan reflects the revised USITC Strategic Plan and
       the final updated USITC Performance Plan for FY2001/2002.

(5)    OIS and the Chairman of the IRMISC will arrange for IRMISC review and
       approval (taking into account their input.)

The target for an approved IRM Strategic Plan is October 31,2000.

5.     CIO to assess JRM skills annually and report on progress to the Chairman.
       (Director, OIS to perform this function pending appointment ofCIO.)

Recommended response: Agree

Plan for implementation:

The CIO 2 will annually assess information-technology and information resources
management skills required for execution of the IRM Strategic Plan, determine gaps
between those requirements and existing staff skills, and recommend strategies for
closing the gaps. The strategies will be summarized in the IRM Strategic Plan.
Specific recommendations for staffing and for funding for training of information-
resources staff, as well as funding to secure special expertise not available on staff,
will be incorporated into the annual budget process. The CIO will make other
resources-related recommendations to the Chairman as necessary.

The target for implementing this procedure in future years will be October I
(coincident with the target fortbe IRM Strategic Plan.) The FY2001/2002 budget
recommendations of the Director ofOIS includes current recommendations on staffing
and funding for training and external sourcing of specialized expertise; the
FY2001/2005 IRM Strategic Plan (targeted for November 1,2000) will include a
discussion of human resource requirements.


        'The Director, OIS, pending appointment ofa ClO.

                                           3
In addition, the CIa will develop and maintain a program of training and information
for non-technical staff involved in managing information resources. The target
audience for this program includes the members of the IRM Steering Committee and
the Budget Committee, as well as representatives from Commissioners' offices who
may have responsibility for assessing technology-related proposals. The CIO will
work with the ERB to integrate this program into the ERB's other executive
development plans.

The target for development of the program is April, 2001.


6.     Director, OIS, should revise the information security plan. (CIO to review
       and update plan annually following appointment]

Recommended response: Agree

Plan for implementation:

The Commission has an excellent information security record, with no known
significant breeches in the past 5 years, virtual immunity from the various viruses and
other cyber-security threats that have grabbed headlines recently, and high marks from
2 separate outside reviews of our systems for protection from Internet threats. All this
has been delivered at minimal cost, with key staff assigned on an "additional-duties"
basis, thanks in great measure to a cooperative and security-aware Commission
community.

Responding to former Chairman Bragg's push to update, simplify and reduce the
number ofUSITC Directives, OIS initiated an ambitious consolidation of information
security-related Directives last year, and has just submitted a proposed Information
Security Directive to the first stage of the Directives Review process. The draft
directive will replace 5 current directives. It was designed to combine guidance from
various Federal sources, and cover both paper and electronic information, to give staff
a single, more comprehensible reference. To make the new guidance as "user-
friendly" as possible, program office have been involved throughout the drafting
process.

In addition to the policy and guidance in the security Directive, we are required by
OMB Circular A-130 to document the security controls for each of the agency's major
computer systems, including the general network we all use ("ITCNet") and each
"major application system" We have plans in place for ITCNet and for EDIS, which
was determined to be the only system qualifying as a "major application system"
under OMB's standards. We have recently added specific "rules of the system" for
privileged system users (i.e., administrators) to the ITeNet plan, as recommended by
the IG's draft report.

The remaining steps to complete the agency's information security planning are:

(I)    Make minor changes to the draft Information Security Directive to clarify the
       relationship between the Directive and the computer system security plans, and
       respond to other issues that may be raised during the directives review process;

                                           4
(2)    Secure Commission approval of the new Directive. The first "informal" round
       of comments are due on July 24. We estimate final approval is likely during
       October.

(3)    OIS will work with the manager responsible for the EOIS system (the
       Secretary) to add "rules of the system" for privileged users, to respond to the
       IG's specific recommendation;

(4)    Combine the ITCNet and EOIS plans into a single document to clarify how
       they are related and explain how these plans relate to security policy as defined
       in the Information Security Directive. (Note: this will not be a public
       document since the plans contain information on the nature of our security
       controls that might be useful to persons intending to compromise them.)

We estimate this can be completed by October 31,2000.


CHAlRMAN ACTION:


Approve: _----'                _                Disapprove:                              _




~6L-?~
Chairman, Stephen K     an                            Date:


The Commission
Director of Operations
Director of Administration




                                           5
